           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



         ADMINISTRATIVE
      COSTS CLAIMED BY THE
       MONTANA DISABILITY
     DETERMINATION SERVICES

      July 2004   A-07-04-14016




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY

MEMORANDUM

Date:   July 16, 2004                                                                     Refer To:

To:     James C. Everett
        Regional Commissioner
         Denver

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Montana Disability Determination Services
        (A-07-04-14016)


        OBJECTIVE
        The objectives of our audit were to evaluate the Montana Disability Determination
        Services’ (MT-DDS) internal controls over the accounting and reporting of administrative
        costs, determine whether costs claimed were allowable and funds were properly drawn,
        and assess limited areas of the general security controls environment. Our audit
        included the administrative costs claimed by the MT-DDS during Fiscal Years (FY)
        2000 through 2002.

        BACKGROUND
        Disability determinations under the Social Security Administration (SSA) Disability
        Insurance and Supplemental Security Income programs are performed by Disability
        Determination Services (DDS) in each State or other responsible jurisdictions. Such
        determinations are required to be performed in accordance with Federal law and
        underlying regulations.1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, the




        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq. (2004).
Page 2 – James C. Everett


DDS is authorized by SSA to purchase consultative examinations to supplement
evidence obtained from the claimants’ physicians or other treating sources. SSA
authorizes an annual budget to reimburse the DDS for 100 percent of allowable
expenditures.2

The Montana Department of Public Health and Human Services (MT-DPHHS) is the
MT-DDS’s parent agency. The MT-DDS is located in Helena, Montana. See
Appendix B for additional background information, and the scope and methodology of
our review.

RESULTS OF REVIEW
Generally, the MT-DDS had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit period were allowable.
However, improvements are needed in the areas of cash management and inventory
procedures. Furthermore, the MT-DDS needs to develop a contingency plan.

CASH MANAGEMENT

States are required under the Cash Management Improvement Act (CMIA) of 1990 to
submit an Annual Report to the Department of Treasury (Treasury).3 The Annual
Report includes State and Federal interest liabilities calculated for each of the programs
covered under the States’ CMIA agreement.4 A State interest liability occurs when the
State draws funds before program expenses are paid.5 A Federal interest liability
occurs when Federal funds are not available to the State to meet immediate program
expenses.6 SSA’s disability program was included in the State of Montana’s CMIA
agreement for the first time in State Fiscal Year (SFY) 2002, when disability program
expenditures reached the States’ threshold of $4 million for inclusion in the CMIA
agreement.

We found MT-DPHHS incorrectly reported Federal interest liabilities to Treasury on
SSA’s disability program of $3,409 and $719 for SFYs 2002 and 2003, respectively.
The inaccurate Federal interest liabilities occurred because MT-DPHHS:

       •    Used a cash balance that was created before the CMIA agreement became
            effective to calculate interest liabilities. Cash balances for periods prior to the


2
    20 C.F.R. §§ 404.1626 and 416.1026 (2004).
3
    31 C.F.R. § 205.26 (2004).
4
    ibid.
5
    31 C.F.R. § 205.15 (2004).
6
    31 C.F.R. § 205.14 (2004).
Page 3 – James C. Everett


          effective date of the CMIA agreement cannot be used to calculate interest
          liabilities under the CMIA agreement.7

      •   Did not have a process in place to ensure funds were drawn in accordance with
          the CMIA agreement. Specifically, Federal funds were not drawn in time to meet
          the MT-DDS’ disbursements even though the Federal funds were available. As a
          result, the States’ cash management records had a negative daily cash balance
          for the MT-DDS during portions of SFYs 2002 and 2003. Since interest liabilities
          are calculated based on the daily cash balance, a Federal interest liability
          occurred.

INVENTORY PROCEDURES

The MT-DDS’ inventory list was not complete because it did not include information on
66 computers. According to the MT-DDS, the lack of appropriate inventory procedures
occurred because there was uncertainty between the MT-DDS and SSA on who was
responsible for the inventory of the computers. According to SSA instructions, “The
State is responsible for maintenance and inventory of all equipment acquired whether
purchased through SSA or the State.”8 Maintaining complete inventory records will help
prevent and/or detect stolen or misplaced equipment.

CONTINGENCY PLAN

The MT-DDS did not have a contingency plan to follow in the event of a disaster that
impacts DDS operations. SSA instructions state, “Events may occur which will prevent
normal operations and interfere with the accomplishment of the mission of the DDS.
Because of this, each office must prepare a contingency plan.”9 The MT-DDS stated
that a contingency plan will be developed.




7
    31 C.F.R. § 205.19 (2004).
8
    Program Operations Manual System (POMS) DI 39530.020.
9
    POMS DI 39566.050.
Page 4 – James C. Everett


CONCLUSIONS AND RECOMMENDATIONS
The MT-DDS had effective internal controls over the accounting and reporting of
administrative costs and the costs it claimed during our audit period were allowable.
However, improvements are needed in the areas of cash management and inventory
procedures. Furthermore, the MT-DDS needs to develop a contingency plan.

We recommend SSA instruct the MT-DDS and MT-DPHHS to:

1. Refund $4,128 to Treasury for the unallowable Federal interest liabilities claimed in
   SFYs 2002 and 2003.

2. Implement procedures to draw cash in accordance with the CMIA agreement.

3. Maintain a comprehensive inventory list that includes all computer equipment.

4. Develop a contingency plan.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our recommendations. See
Appendix C for the full text of SSA’s comments. The MT-DPHHS stated that it agreed
with our recommendations and had no formal comments to our draft report.




                                                S
                                                Steven L. Schaeffer
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act        Social Security Act

C.F.R.     Code of Federal Regulations

CMIA       Cash Management Improvement Act

DDS        Disability Determination Service

DI         Disability Insurance

FY         Fiscal Year

MT-DDS     Montana Disability Determination Services

MT-DPHHS   Montana Department of Public Health and Human Services

POMS       Program Operations Manual System

SFY        State Fiscal Year

SSA        Social Security Administration

SSA-4513   State Agency Report of Obligations for SSA Disability Programs

SSI        Supplemental Security Income

Treasury   Department of the Treasury

U.S.C.     United States Code
                                                                      Appendix B

Background, Scope and Methodology
BACKGROUND

The Disability Insurance (DI) program was established in 1954 under Title II of the
Social Security Act (Act).1 The program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. The Supplemental Security
Income (SSI) program was created as a result of the Social Security Amendments of
1972 with an effective date of January 1, 1974. SSI (Title XVI of the Act) provides a
nationally uniform program of income to financially needy individuals who are aged,
blind, and/or disabled.2 The Social Security Administration (SSA) is primarily
responsible for implementing policies governing the development of disability claims
under the DI and SSI programs. Disability determinations under both DI and SSI are
performed by Disability Determination Services (DDS) in each State or other
responsible jurisdictions.

The DDS withdraws Federal funds through the Department of the Treasury’s (Treasury)
Automated Standard Application for Payments system to pay for program expenditures.
Funds drawn down must comply with Federal regulations3 and intergovernmental
agreements entered into by Treasury and States under the Cash Management
Improvement Act (CMIA) of 1990.4 At the end of each quarter of the fiscal year (FY),
DDS submits a State Agency Report of Obligations for SSA Disability Programs
(SSA-4513) to account for program disbursements and unliquidated obligations.

SCOPE
To achieve our objective, we:

•     Reviewed applicable Federal regulations, pertinent parts of Program Operations
      Manual System DI 39500 DDS Fiscal and Administrative Management, and other
      instructions pertaining to administrative costs incurred by Montana Disability
      Determination Services (MT-DDS) and the draw down of SSA funds.

•     Interviewed State of Montana internal auditors who performed the Montana single
      audit. Because of the limited scope of the single audit work performed at MT-DDS,
      we did not rely on the single audit work.

1
    42 United States Code (U.S.C.) § 401 et seq. (2004).
2
    42 U.S.C. § 1381 et seq. (2004).
3
    31 Code of Federal Regulation § 205.1 (2003).
4
    Public Law 101-453.


                                                    B-1
•   Interviewed staff at MT-DDS, Montana Department of Public Health and Human
    Services (MT-DPHHS) and SSA Regional Office.

•   Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.

•   Reviewed the reconciliation of official State accounting records to the administrative
    costs reported by MT-DDS on the SSA-4513 for FYs 2000 through 2002.

•   Reviewed the administrative costs MT-DDS reported on its SSA-4513 for
    FYs 2000 through 2002.

•   Examined the administrative expenditures (personnel, medical service, and all other
    nonpersonnel costs) incurred and claimed by MT-DDS for FYs 2000 through
    2002 on the SSA-4513. We used statistical sampling to select documents to test for
    support of the medical service and all other nonpersonnel costs.

•   Examined the indirect costs claimed by MT-DDS for FYs 2000 through 2002 and the
    corresponding Cost Allocation Plan.

•   Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the SSA-4513.

•   Discussed indirect costs issues with the Department of Health and Human Services’
    Division of Cost Allocation.

•   Reviewed MT-DDS general security controls related to physical security and
    continuity of operations.

We determined that the data provided by MT-DPHHS and used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the MT-DDS and the MT-DPHHS in Helena, Montana, and the
Office of Audit in Kansas City, Missouri. We conducted fieldwork from
August 2003 through February 2004. The audit was conducted in accordance with
generally accepted government auditing standards.




                                            B-2
METHODOLOGY

SAMPLING METHODOLOGY

We tested documents supporting the $12,431,983 in costs claimed by the MT-DDS for
the period October 1, 1999 through September 30, 2002. The sampling methodology
encompassed the four general areas of costs reported on the SSA-4513 (1) personnel,
(2) medical, (3) indirect, and (4) all other non-personnel costs. We obtained a data
extract of all costs and the associated invoices for FYs 2000 through and 2002 for use
in statistical sampling. This was obtained from the accounting systems used in the
preparation of the SSA-4513.

Personnel Costs

We reviewed 44 employees and 7 contractors from one judgmentally selected pay
period in FY 2002. We tested the payroll records to ensure individuals were paid
correctly and payroll was adequately documented.

Medical Costs

We sampled 150 items (50 items from each FY) using a stratified random sample of
medical cost based on the proportion of Medical Evidence of Record and Consultative
Examination costs to the total medical costs claimed.

Indirect Costs

The MT-DDS utilized spreadsheets to allocate indirect costs for FY 2000 and the first
3 quarters of FY 2001. During the last quarter of FY 2001, the MT-DDS began using the
Peoplesoft system to capture the amounts of indirect cost instead of spreadsheets. For
this reason we randomly selected one Federal quarter of indirect expenses for each FY
under review. In addition, we reviewed the one quarter in FY 2001 during which the
MT-DDS transitioned to the Peoplesoft system.

All Other Nonpersonnel Costs

We sampled 150 items (50 expenditures from each FY) using a stratified random
sample. The random sample was based on the proportion of costs in each of eight cost
categories to the total costs claimed. MT-DDS did not use the all other nonpersonnel
cost subcategories of costs that are presented on the new SSA-4513 layout. Therefore,
we categorized costs using the same cost categories used by the State’s accounting
system. The categories we used for sample stratification are similar to the
SSA-4513 cost categories. In addition, we reviewed occupancy costs for one month in
each FY.




                                          B-3
                  Appendix C

Agency Comments
MEMORANDUM

Date:   June 23, 2004                                                            Refer To: S2G8B4:RC
FM 14-1

To:     Assistant Inspector General
         for Audit

From:   James C. Everett /s/
        Denver Regional Commissioner

Subject: Administrative Costs Claimed by the Montana Disability Determination Services (DDS)
        (A07-04-14016) (Your Memo, 6/4/2004)—REPLY


        Thank you for providing us the opportunity to review the draft report of audit for the Montana
        DDS. We have reviewed the draft report and find that it was thorough and that the findings are
        accurate. We have no comments on the draft, as written.

        Please let me know if you have any questions or concerns. The staff contact is Bob Carmichael,
        telephone (303) 844-4878.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Central Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Kenneth Bennett, Information Technology Specialist

   Douglas Kelly, Auditor

   Karis Gaukel, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-04-14016.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
